Card Agreement Guide
This Guide will help you easily identify sections of the Card Agreement and give you a brief overview of the contents of each section. This is not
intended to be a complete summary of the Card Agreement’s contents, and we encourage you to read your entire Card Agreement, including the
arbitration provision, before you use your Account.

1
2
3
4
5
6
7

DEFINITIONS

Lists the meanings of particular phrases and terms
used in the Card Agreement.

YOUR ACCOUNT

Describes some of your responsibilities for using
your Account.

ANNUAL PERCENTAGE RATES
& INTEREST CHARGES

8
9

Shows how we calculate interest rates and how that
affects your Account balance.

FEES & FOREIGN CURRENCY CONVERSION
Describes the fees that can be applied to your Account,
including late fees, returned payment fees, as well as
foreign transaction fees for Purchases not in U.S. dollars.

PAYMENTS

Shows how your monthly Minimum Payment Due is
calculated, tells you how we apply your payments to
balances, and gives you certain instructions for making
payments (and tells you the possible consequences of
not following those instructions).

AUTHORIZED USERS

Describes an Authorized User’s rights and your
responsibility for that user. Also describes what
information we can share about you and your
Authorized User.

DEFAULT, CLOSING OR SUSPENDING
YOUR ACCOUNT

Tells you when we may require immediate payment of
your total Account balance, and explains when we may
close or suspend your Account, and when you may close
your Account.

10
11
12
13
14

CREDIT REPORTING

Describes what information we provide about you to
credit reporting agencies, and how to dispute items on
your report. This section also explains how we use
information we get about you from those agencies.

ACCOUNT INFORMATION, INFORMATION
SHARING & COMMUNICATIONS
Explains that your personal information we use to
manage your Account should always be up to date.
Also notes that we share information about you and
your Account. In addition, this section describes how
we may contact you.

TRANSACTIONS

Provides important information about merchant credits,
recurring Transactions and card refusals.

ARBITRATION

Explains that you cannot go to court, have a jury trial or
initiate or participate in a class action if you have a
dispute with us. Instead, this provision tells you that the
dispute must be resolved by a professional arbitrator,
not a judge or jury. This section also explains how
arbitration works and some of the differences between
resolving a dispute in arbitration and resolving one
in court.

AGREEMENT & BENEFIT CHANGES

Explains that we can make changes to the Card
Agreement and your card benefits and features.

MISCELLANEOUS

Explains subjects that aren’t included in
previous sections.

YOUR BILLING RIGHTS

Explains your billing rights, which include how to
address possible statement mistakes and your rights
if you’re not satisfied with a Purchase.

Card Agreement
This Card Agreement (Agreement) is your contract with us.
The Facts about Interest and Fees document (Fact Sheet) is part of this Agreement. The Fact Sheet shows important information about your Account,
such as your annual percentage rates and certain fees. Any amendments to this Agreement also are part of this Agreement.
Please read all parts of this Agreement, including the arbitration provision, and keep it for your records.
Note: Throughout the Agreement are examples, helpful tips and additional explanations
that will make the Agreement easier to understand.

1

DEFINITIONS
Account – Your Costco Anywhere Visa® Card Account.
Adjusted New Balance – Your New Balance less any Citi Flex Plan
balance.
Annual Percentage Rate (APR) – A rate, shown as a percentage, used
to calculate interest on the balance on your Account.
Authorized User – Any person you allow to use your Account with a
Card we provided with that person’s name.
Balance Transfer – Use of a Balance Transfer offer, including use of a
check that accesses your Account for any transaction, or the transfer of
a balance from another credit account to your Account.
Billing Period – The period of time between each date when we create
a statement for your Account. A Billing Period is usually 28 – 33 days.
For each Billing Period, your statement will show any Transactions, other
charges, payments and other credits posted during that Billing Period.
Business Day – Monday through Friday, excluding federal holidays.
Card – One or more cards or other devices (including an account
number) used to access your Account to obtain credit.
Card Networks – Organizations, such as Mastercard, Visa and
American Express, that facilitate the payment process between a
cardmember, merchants and a card issuer.
Cash Advance – Use of your Card to get cash, including foreign
currency, or for what we consider a cash-like transaction. Examples
include using your Card for: ATM and teller withdrawals, wire transfers,
money orders, traveler’s checks, lottery tickets, gaming chips and other
methods used for gambling, wagers and other betting transactions.
A Citi Flex Loan is not a Cash Advance.
Citi Flex Loan – Funds provided to you by check or by direct deposit
that you select to be charged to your Account and repaid under a Citi
Flex Plan. Balance Transfers and Cash Advances are not Citi Flex
Loans.

Citi Flex Pay – Eligible Transactions that you select to be paid under a
Citi Flex Plan.
Citi Flex Plan – A feature on your Account to pay Citi Flex Loans or Citi
Flex Pay amounts in fixed payments over a defined number of Billing
Periods subject to a Citi Flex Plan APR.
Consumer Reporting Agency – An organization, such as Experian,
Equifax and TransUnion, that compiles credit information for the purpose
of generating consumer credit reports. It’s also known as a “credit
bureau” and a “credit reporting agency.”
Include and including – These terms mean “include [or including]
without limitation.”
Late Payment – A payment is late if you don’t pay at least an amount
equal to the Minimum Payment Due minus any Overlimit Amount by the
payment due date.
New Balance – The total amount you owe us at the end of each Billing
Period. This amount is shown on each statement under the heading
“New Balance.” We explain how we calculate the New Balance below.
Overlimit Amount – The amount by which your Account balance
exceeds your credit limit in any Billing Period.
Purchase – Use of your Card to buy goods and services. Balance
Transfers and Cash Advances are not Purchases.
Returned Payment – A payment that isn’t honored by your
financial institution.
Transaction – A Balance Transfer, Cash Advance, Purchase or
Citi Flex Plan, as applicable.
we, us and our – Citibank, N.A.
you and your – The cardmember who opened the Account.

You’ll find definitions of other terms within this Agreement.

1

2

YOUR ACCOUNT
Your Account use is subject to this Agreement. You must pay us for
all amounts due on your Account, including:

Citi Flex Plan. Your ability to create a Citi Flex Plan will depend on the
amount of your available credit, creditworthiness, and other factors. We
may limit the number of active Citi Flex Plans you can have and we may
change this number at any time. There are two ways to create a Citi Flex
Plan – Citi Flex Pay and Citi Flex Loan.

1. Transactions you make, even if you didn’t present your Card or sign
for the Transaction;
2. Transactions an Authorized User makes;

With Citi Flex Pay, you can pay for eligible Transactions under a Citi
Flex Plan. An eligible Transaction for Citi Flex Pay must be a Purchase of
at least a specified dollar amount and does not include a Purchase of
cash or cash equivalent, a Purchase subject to Foreign Transaction Fees
or any fee owed to us. Other exclusions may apply.

3. Transactions that other people make if you or an Authorized User let
them use your Account; and
4. Any fees and interest charges on the Account.
Binding Agreement. This Agreement takes effect once you use your
Card. Even if you don’t use your Card, this Agreement will take effect
unless you contact us to cancel your Account within 30 days after we
sent you this Agreement.

With Citi Flex Loan, you can use your Account’s credit line to access
funds and pay such funds under a Citi Flex Plan. You can only create a
Citi Flex Loan if you receive an offer. The offer will tell you the terms,
including the APR, that will apply to that Citi Flex Loan.

Credit Limit. We assign a credit limit to your Account. Part of this credit
limit may be available for Cash Advances, and there may be a limit on
the amount of Cash Advances you can take in a given period. We
may authorize Transactions that cause your balance to exceed your
credit limit.

Unlawful Transactions. You aren’t permitted to use your Account for
unlawful Transactions. If you do use your Account for unlawful
Transactions, this Agreement still applies and you must pay us for those
Transactions. You also may have to pay the Card Network and/or us for
any damages and expenses resulting from that use. In addition, we may
close your Account.

ACCOUNT USE

Mobile Phone or Other Devices. Smart phones, tablets and other
electronic devices can store your Card (such as through a mobile wallet).
This means they can be used to make Purchases or other Transactions.
Any such Transactions are covered by this Agreement. Apps that use
your Card to make Transactions may have separate terms of use. We’re
not responsible if you violate those terms, or for any consequences
resulting from any violation.

Consumer Purposes. You aren’t permitted to use your Account for
business purposes. If you do use your Account for business purposes,
this Agreement still applies, and you must pay us for those Transactions.
You have to pay us for any damages and/or expenses resulting from that
use. In addition, we may also close your Account.

Note: It’s important to protect your devices the same way you protect your Card.
Anyone who can access your Card using your device also can make charges to your Account using that device.

3

ANNUAL PERCENTAGE RATES & INTEREST CHARGES
The following sections explain how we calculate the interest you
owe each Billing Period.
APRs. We use APRs to calculate interest charges on your Account.
Different APRs may apply to different Transactions. See the listing of your
APRs on the Fact Sheet.
Variable APRs. A variable APR is an APR that can change each Billing
Period. We calculate each variable APR first by taking the U.S. Prime
Rate from The Wall Street Journal (WSJ) two Business Days before the
last day of each Billing Period. (If the WSJ doesn’t publish the U.S. Prime
Rate that day, then we’ll use another publication.) Then we add to the
U.S. Prime Rate a certain percentage amount, which we call the Margin.
You can find the Margin we use for your Account in the Details About
Your Interest Rate section of the Fact Sheet. Your variable APRs will
increase if the U.S. Prime Rate increases and decrease if the U.S. Prime
Rate decreases. If a variable APR increases, then your interest charges
and Minimum Payment Due may increase.

How is a variable APR calculated?
If the U.S. Prime Rate published in the WSJ two Business Days
before the end of a Billing Period is 5%; and
If the Margin is 13.99%; then
Add the two together to calculate a variable APR:
5% + 13.99% = 18.99%
If the U.S. Prime Rate changes, we’ll apply the new variable APR starting
from the first day of the Billing Period when we take the U.S. Prime Rate
from the WSJ. The new APR will apply to existing balances, as well as
balances added to your Account after the change.
Penalty APR. If you have a Late or a Returned Payment, we may apply
a penalty APR to your Account. We determine your penalty APR based
on your creditworthiness.
continued on next page

2

Section 3 — ANNUAL PERCENTAGE RATES & INTEREST CHARGES (continued)

• Penalty APR for new Transactions (less than 60 days late).
If you make a Late Payment and it’s less than 60 days late or you
have a Returned Payment, the penalty APR only will apply to new
Transactions. We’ll review your Account from time to time, to
determine if any penalty APR should be reduced.
• Penalty APR for existing balances and new Transactions (60 or
more days late). If we haven’t received your Minimum Payment Due
within 60 days after its due date, we may apply the penalty APR to
both the existing balances and new Transactions. If you make your
next 6 consecutive Minimum Payments Due on time, we’ll stop
applying the penalty APR to existing balances and new Transactions.
If you don’t make your next 6 consecutive Minimum Payments Due on
time, the penalty APR may continue to apply indefinitely to existing
balances and new Transactions.
Daily Balance
We calculate interest on your Account each Billing Period first by
calculating your daily balances. The following explains how we do that.
Here’s how and when Transactions, fees and credits are applied to
the balances on your Account:
• We add the amount of a Purchase or Balance Transfer to the
Purchase balance as of the post date on your statement.
• We add the amount of a Cash Advance to the Cash Advance balance
as of the post date on your statement.
• We add a Balance Transfer fee to the Purchase balance as of the post
date on your statement.
• We add the amount of any eligible Transaction under Citi Flex Pay or a
Citi Flex Loan to a Citi Flex Plan balance as of the post date on your
statement. If you moved an amount from another balance within your
Account to a Citi Flex Plan, we will credit the other balance in the
amount you added to a Citi Flex Plan in order to avoid double counting
that amount.
• We add a Cash Advance fee to the Cash Advance balance as of the
post date on your statement. We’ll add any other fees to the balance
of our choice. If you’re charged interest in a Billing Period, but the
amount calculated is less than $0.50, we’ll add additional interest to
the balance(s) of our choice so that you’ll be charged $0.50 in interest
for that Billing Period.
• We subtract credits and payments as of the post date shown on
your statement.
• Each balance may have a different APR. Certain categories of
Transactions in a balance may have multiple APRs. For example, you
may make a Purchase or Balance Transfer, or create a Citi Flex Plan,
that’s subject to a promotional APR. Your balances, and their
corresponding APRs, are shown on your statement.
Note: The post date shown on your statement will usually be the date
of the Transaction, but it may be later.
Here’s how we calculate each of the daily Purchase, Cash Advance
and Citi Flex Plan balances on your Account:
• We start with the daily balance from the end of the previous day.
• We add any new Transactions, fees and other charges, including
interest accrued on the previous day’s balance. This means that
interest is compounded daily.

• We subtract any credits or payments credited as of that day.
• We make additional adjustments as appropriate, subject to
applicable law (as an example, for a disputed charge). This gives us
the daily balance for that day.
Daily balance for purchases from the previous day
+ New purchases
+ Fees and interest accrued on the previous day’s Purchase
balance
– Payments, credits and adjustments posted that day
= New daily balance for Purchases
Interest Calculation. Each daily balance may have a different APR.
Certain categories of Transactions in a daily balance may have multiple
APRs. For example, you may make a Purchase or Balance Transfer
that’s subject to a promotional APR. If a daily balance on your Account
is subject to an APR, we’ll charge interest on that daily balance. We
use the daily balance method (which includes new Transactions). If
interest applies to a balance, it will start applying on the day a charge is
added to that balance and continue until that balance is paid in full. We
consider a credit balance as a balance of zero when calculating
interest on that balance.
• We multiply each daily balance by its applicable daily periodic rates
(each applicable APR divided by 365).
• We do this for each day in the Billing Period. This gives us the daily
interest amounts.
• Then we total all the daily interest amounts for all the daily balances.
This gives us the total interest for the Billing Period.
Note: Your balances, and their corresponding APRs, are shown on
your statement.
Calculating the New Balance. To calculate the New Balance at the
end of each Billing Period, we begin with the total Account balance at
the start of that Billing Period. Then we add any Transactions that are
new to the Account during that Billing Period. Then we subtract any
credits applied or payments made during that Billing Period. Then we
add any interest charges or fees incurred during that Billing Period and
make any other adjustments, as applicable (for example, if you have
disputed a charge).
Grace Period on Purchases. You won’t pay any interest on
Purchases if you pay the Adjusted New Balance, including any Balance
Transfers, plus any Citi Flex Plan Payment Amount, in full by the
payment due date shown on your statement each Billing Period. We
call this a grace period on purchases. If you don’t pay your Adjusted
New Balance in full, plus any Citi Flex Plan Payment Amount, by the
payment due date in a Billing Period, you’ll pay interest on your
Purchases from the date they’re posted to your Account. You also
won’t have a grace period on Purchases again until you pay the
Adjusted New Balance in full, plus any Citi Flex Plan Payment Amount,
by the payment due date 2 Billing Periods in a row.
There’s no grace period on Balance Transfers and Cash Advances.
This means you’ll pay interest on Balance Transfers and Cash
Advances from the date these Transactions post to your Account.

continued on next page

3

Section 3 — ANNUAL PERCENTAGE RATES & INTEREST CHARGES (continued)

Important Information about Citi Flex Plans: We apply any
amount you pay over your Minimum Payment Due first to the balance
with the highest APR, then to the balance with the next highest APR,
and so on, as described in Section 5, Application of Payments. This
means that, if the APR for a Citi Flex Plan balance is higher than an
APR that applies to another balance on your Account, we will apply
the amount you pay above the Minimum Payment Due to that Citi
Flex Plan balance prior to that other balance. This will cause you to
pay off that Citi Flex Plan balance before the end of its repayment
period and may result in an amount remaining due on your next
billing statement for the other balance, increasing your Adjusted New
Balance on your next billing statement.
You can see your balances and their corresponding APRs on your
statement.
For example, in a sample Billing Period, an Account with no past
due or Overlimit Amounts, has:
Citi Flex Plan: $5,000 with a repayment period of 24 months at
16.99% APR
Citi Flex Plan statement balance in sample Billing Period:
$4,090

The New Balance for the Account: is $9,090. The Adjusted New
Balance is the New Balance ($9,090) less the Citi Flex Plan
Balance ($4,090): $5,000. Your Minimum Payment Due is $323
($75 + $248). To retain your grace period on purchases, you must
pay the Adjusted New Balance ($5,000) plus your Citi Flex Plan
Payment Amount ($248): $5,248.
If your Purchase APR is equal to or higher than your Citi Flex Plan
APR and you make a payment to retain your grace period on
purchases ($5,248), your Purchase balance will be reduced to $0.
This means that, to retain your grace period on purchases in the
next Billing Period, you will be required to pay $248 (your Citi Flex
Plan Payment Amount), assuming you do not make any new
Transactions.

Grace Period for Citi Flex Plan balances. When you create a Citi
Flex Plan, you will be charged interest on the Citi Flex Plan balance
from the start of the Billing Period following the Billing Period when
you created the Citi Flex Plan. This means that you will not be
charged interest on the Citi Flex Plan balance during the Billing
Period in which you created the Citi Flex Plan.

Citi Flex Plan interest charge in sample Billing Period: $56.92
Citi Flex Plan Payment Amount per Billing Period: $248
and
Purchase balance: $5,000
Minimum Payment Due for Purchases: $75
(Calculations are approximate and for illustrative purposes only.)

4

4

FEES & FOREIGN CURRENCY CONVERSION

FEES
Fee

Amount

About the Fee

Annual Membership Fee

None

There is no annual membership fee for this credit card. We will close your
Account if you do not maintain a Costco membership.

Late Fee

Up to $40

We have the right to charge you a late fee if you don’t pay at least an amount
equal to the Minimum Payment Due minus any Overlimit Amount by the payment
due date. The late fee is $29 and, if you make another Late Payment within the
next 6 Billing Periods the late fee will be $40. The amount of your late fee will
never be higher than your Minimum Payment Due.

Returned Payment Fee

Up to $40

We have the right to charge you a Returned Payment fee of $29 if your bank
doesn’t honor your payment. If that happens, we’ll resubmit the payment request.
If your bank doesn’t honor another payment within 6 consecutive Billing Periods,
the returned payment fee will go up to $40.

Transaction Fee for
Balance Transfers

Either $5 or 3% of the amount of
each transfer, whichever is greater.

We charge you a fee for each Balance Transfer.

Transaction Fee for
Cash Advances

Either $10 or 5% of the amount of each
cash advance, whichever is greater.

We charge you a fee for each Cash Advance.

FOREIGN CURRENCY CONVERSION
Foreign Currency Conversion – Purchases. A Card Network converts the
amount of a Purchase in a foreign currency into U.S. dollars. Each Card Network
follows its own procedures for conversion. These procedures include how the
Card Network chooses an exchange rate and when to do the conversion. For
example, Visa chooses either a government-mandated exchange rate or
chooses from a range of rates available on wholesale currency markets (and,
in either case, the exchange rate that it chooses may be less favorable than
the rate that Visa itself, receives when it makes foreign currency transactions).
Depending on the policies of each Card Network, the exchange rate chosen
may be the one in effect on the day the Card Network does the conversion, or
on the day before. The exchange rate that a Card Network uses to convert the
Purchase to U.S. dollars may differ from the rate in effect on the date you made
the Purchase or on the post date for that Purchase shown on your statement.
The Card Network’s procedures may change without notice.
If a third party, such as a merchant, converts the amount of a Purchase into U.S.
dollars before sending the Purchase to a Card Network, the third party chooses
the conversion rate instead of the Card Network.

Foreign Currency Conversion – Cash Advances. If you take a Cash
Advance in a foreign currency at an ATM or branch of a financial
institution, it may not be the Card Network in all instances that converts
the Transaction into U.S. dollars. Instead, depending on where the
Transaction takes place, another third party, such as a financial
institution, ATM network or ATM operator, may do the conversion. We do
not control this. However, if you use your Card for a Cash Advance at a
Citibank ATM or branch, then we or our affiliates may do the conversion.
The party that converts a Cash Advance to U.S. dollars will choose the
exchange rate and when to do the conversion. The exchange rate in
effect on the date the Cash Advance is converted to U.S. dollars may
differ from the rate in effect on the date you took the Cash Advance or
the post date for that Transaction shown on your statement. The
exchange rate may also differ from any rate quoted to you when you
made the Transaction.

5

5

PAYMENTS
Minimum Payment Due. You may pay all or a part of your Account
balance at any time. You must pay at least the Minimum Payment Due by
the payment due date each Billing Period.

• The number of months in the Citi Flex Plan repayment period.
• We then round the result up to the nearest dollar.

Your “Minimum Payment Due” equals:

The formula we use for determining the amount described directly
above is:

• Any amount past due; plus

• The Citi Flex Plan balance, multiplied by

• Any Overlimit Amount; plus

• (IPAPR / 12 ) / (1-(1 + IPAPR / 12 ) -N), rounded up to the nearest
dollar. “IPAPR” equals the specific Citi Flex Plan APR applicable to the
Citi Flex Plan balance. “N” equals the number of months in the Citi Flex
Plan repayment period.

• Any Citi Flex Plan Payment Amount; plus
• The greater of:
1. The Adjusted New Balance, if it’s less than $35;
2. $35 if the Adjusted New Balance is at least $35;
3. 1% of the Adjusted New Balance (rounded to the nearest dollar),
plus any billed interest or minimum interest charge, plus any late
fee; or
4. 1.5% of the Adjusted New Balance (rounded to the nearest dollar).
The Minimum Payment Due is never more than the New Balance.
Note: Your payment due date is typically the same day of the month every
month. You may request a change to your monthly due date.
How is the Minimum Payment Due calculated?
For example, in a sample Billing Period, an Account with no past due,
Overlimit or Citi Flex Plan Payment amount has:
New Balance: $2,500
Interest: $18.54
Since the New Balance is more than $35, and there are no past due or
Overlimit amounts, the Minimum Payment Due will be the greater of:
1% of the New Balance
(1.0% x $2,500: $25.00) + interest ($18.54): $43.54
or
1.5% of the New Balance (1.5% x $2,500): $37.50
Since 1% of the New Balance plus interest ($43.54) is greater than
1.5% of the New Balance ($37.50) the Minimum Payment Due is
$43.54.
Citi Flex Plan Payment Amount. The Minimum Payment Due will include
any amount due on a Citi Flex Plan balance each Billing Period (the “Citi
Flex Plan Payment Amount”). You must pay the Citi Flex Plan Payment
Amount each Billing Period, calculated as described below, for so long as
any balance remains in the Citi Flex Plan. The Citi Flex Plan Payment
Amount will never be more than the amount of the Citi Flex Plan balance.
We determine the Citi Flex Plan Payment Amount for each Citi Flex Plan
that you will pay in each Billing Period as follows:
• The Citi Flex Plan balance as of the date you create the Citi Flex Plan, plus
• The estimated interest charges for the Citi Flex Plan calculated on the
daily balance from the start of the next Billing Period following the
Billing Period in which you created the Citi Flex Plan through the end of
the Citi Flex Plan repayment period (assuming that you pay the
Minimum Payment Due on your Account each month on the due date),
the sum of which is divided by:

The actual interest charged on your Plan will be calculated as described
in Section 3. Your first Citi Flex Plan Payment Amount will be due in the
Billing Period following the Billing Period in which you created the Citi Flex
Plan. If you do not pay your Minimum Payment Due in full by the due
date, you may owe additional interest on your Citi Flex Plan balance. This
will not increase the Citi Flex Plan Payment Amount for subsequent Billing
Periods, but you may be required to make additional payments after the
end of the Citi Flex Plan repayment period to pay your Citi Flex Plan
balance (including any additional interest) in full.
If you have not paid your Minimum Payment Due for any three Billing
Periods during the Citi Flex Plan, and the Minimum Payment Due for
those three Billing Periods remains outstanding at the end of your current
Billing Period, we may cancel any existing Citi Flex Plan from your
Account, then add the balance of any canceled Citi Flex Plan to the
Purchase balance, retaining the Citi Flex Plan APR that was in effect at
time of cancellation. We may also do this if:
• You file for bankruptcy or some other insolvency
proceeding is filed by or against you.
• You don’t honor the terms of this Agreement.
• You’re declared incompetent or mentally incapacitated or in
the event of your death.
• You enter into a hardship assistance program.
If any of the above events occur, we will calculate the Minimum Payment
Due as part of the Adjusted New Balance as described in Section 5 and
you will no longer pay a monthly Citi Flex Plan Payment Amount. Any
canceled Citi Flex Plan balance amount that was added to a Purchase
balance will not be added back to a Citi Flex Plan balance, even if you
pay your outstanding Minimum Payment Due in full. You will not be
eligible to create another Citi Flex Plan until you pay your outstanding
Minimum Payment Due in full, and then only if we offer you the
opportunity to create another Citi Flex Plan.
Important Information about Citi Flex Plans and Promotional APRs:
If your Citi Flex Plan APR is higher than any other APR, such as a
promotional Balance Transfer APR, we will apply any payment you make
above the Minimum Payment Due to that Citi Flex Plan balance prior to
the lower APR balances. This means that if you want to pay off a
balance with a lower promotional APR before the promotional period
expires, you must first pay off all your other balances with higher
APRs, including your Citi Flex Plan balance, before you can pay off
that promotional balance.

continued on next page

6

Section 5 — PAYMENTS (continued)

For example, in a sample Billing Period, an Account with no past due
or Overlimit Amounts, has:
Citi Flex Plan: $5,000 with a repayment period of 24 months at
16.99% APR
Citi Flex Plan statement balance in sample Billing Period: $4,090
Citi Flex Plan interest charge in sample Billing Period: $56.92
Citi Flex Plan Payment Amount per Billing Period: $248
And
Balance Transfer amount: $3,500
Balance Transfer promotional APR: 0.00% (increases to standard
Purchase APR of 19.99% after the promotion period ends in the
next Billing Period)

Application of Payments. We decide how to apply your payment, up
to the Minimum Payment Due, to the balances on your Account. We
may apply the Minimum Payment Due first to interest charges, then to
the balance with the lowest APR and then to balances with higher
APRs. If you pay more than the Minimum Payment Due, we’ll apply the
amount over the Minimum Payment Due first to the balance with the
highest APR, then to the balance with the next highest APR, and so on,
except as otherwise required by applicable law.
Payment Instructions. You must follow the instructions below when
making a payment. If you do, we’ll credit the payment to your Account
as of the day we receive it.
1. You must pay in U.S. dollars.
2. You must use a check or electronic debit issued by a bank in
the United States.
3. You must not send us a check dated after the date that we
receive it.

Minimum Payment Due for Balance Transfer amount: $53

4. You must not enclose more than one check per envelope.

(Calculations are approximate and for illustrative purposes only.)

6. You must follow the additional payment instructions shown on
your statement.

The New Balance for the Account: is $7,590. The Adjusted New
Balance is the New Balance ($7,590) less the Citi Flex Plan Balance
($4,090): $3,500. Your Minimum Payment Due is $301 ($53 + $248).
You make a payment of $3,748, which includes the Minimum Payment
Due ($301) and an additional amount over your Minimum Payment
Due ($3,447). Because the Citi Flex Plan APR is higher than the
Balance Transfer APR, the amount of your payment over the Minimum
Payment Due will be applied to your Citi Flex Plan balance before the
Balance Transfer amount, leaving a Balance Transfer amount of
$3,447. In the next Billing Period when the Balance Transfer
promotional period ends, you will owe interest on this Balance
Transfer amount at a 19.99% APR.

5. You must not include any restrictive endorsements on the check.

If you don’t pay in U.S. dollars and we accept your payment, we’ll
select the currency conversion rate, and you must pay our costs. If you
don’t follow our payment instructions, we may not accept your
payment, or there may be a delay in crediting your Account. Either
case may result in late fees and additional interest charges to your
Account. If you don’t follow the instructions in this Agreement or on
your statement, we may accept your payment without losing our
rights. We may reject a payment
if it’s more than the outstanding Account balance. We also may close
your Account.

7

6

AUTHORIZED USERS

Adding and Removing Authorized Users. You can ask us to add one
or more Authorized Users to your Account. If we approve, use of your
Account by an Authorized User is subject to the terms of this Agreement.
You must:

What can Authorized Users do? All Authorized Users can take certain
actions with the Account, including:
• Report lost or stolen Cards
• Make payments
• Obtain certain information about
the Account, such as the
Authorized User Transaction
history, the Account balance and
Minimum Payment Due

• Obtain permission from each Authorized User before naming him or
her as an Authorized User on your Account.
• Make a copy of this Agreement available to each Authorized User.
You must notify us to remove an Authorized User from your Account.
If we remove an Authorized User, in some cases we may close your
Account, open a new Account and issue you a new Card.

Information about Authorized Users. You agree to give us certain
personal information about each Authorized User. You must let each one
know that you’ll give us that information and you must have his or her
permission to do so. You must have permission from each one to allow
us to share information about him or her as allowed by applicable law.
This includes information we may get from you, any Authorized User
and others. It also includes information about their Transactions on
the Account.

Your Responsibility for Authorized Users. You must pay us for:
• Any Transactions made by an Authorized User on your Account.
• Any Transaction made by an Authorized User even if the post date
shown on your statement for that Transaction occurs after the date
you ask us to remove the Authorized User from your Account.
• Any Transactions made by others if an Authorized User allows them to
use your Account.

Credit Reporting. We report information about this Account to
Consumer Reporting Agencies in the Authorized User’s name that may
appear on their credit report. This could include information about:

Fees and charges resulting from any Transactions made by an
Authorized User or others if an Authorized User allows them to use
your Account.
Account Rights for Authorized Users. You agree that an Authorized
User may use and receive information about the Account, such as the
Authorized User Transaction information and history, Account Balance
and Minimum Payment Due. You allow us to discuss your Account with
an Authorized User. We may also provide you the option to give
Authorized Users expanded access to your Account, such as permitting
the Authorized Users to set up recurring payments or to obtain your
Transaction history. If we provide this expanded access, we will explain
the available options. An Authorized User won’t be able to add other
Authorized Users, adjust the credit limit or close the Account.

• Initiate billing disputes
• Request refund checks

•
•
•
•

Late Payments;
Overlimit Amounts;
Returned Payments; and
Other violations of this Agreement.

You must let each Authorized User know that we report Account
information in his or her name. Also, see Credit Reporting in Section 8.

7

DEFAULT, CLOSING OR SUSPENDING YOUR ACCOUNT

Default. We may require immediate payment of your total Account
balance, to the extent allowed by law, if any of the following occur:

1. You don’t pay at least the Minimum Payment Due by the due date.
2. You have a Returned Payment.
3. You file for bankruptcy or some other insolvency proceeding is
filed by or against you.
4. You don’t honor the terms of this Agreement.
5. You default under any other card agreement you have with us.
6. You’re declared incompetent or mentally incapacitated, or in the
event of your death.

Closing or Suspending Your Account. We may close or suspend your
Account if any of the events listed above occur, or for any reason, or for
no reason. We may do this at any time, without notifying you, as allowed
by law. We may cancel your current Card and issue you a substitute Card
at any time. You also may close your Account at any time by notifying us
by telephone or in writing. If we close or suspend your Account, or if you
close your Account, you must pay us all amounts you owe on the Account
(including any amount due on a Citi Flex Plan balance), even if they post
to your Account after it’s closed or suspended.
Note: We will close your Account if you do not maintain a
Costco membership.

8

8

CREDIT REPORTING
You allow us to get information about you. We get it from Consumer
Reporting Agencies and other sources that provide consumer financial
information. You allow us to use it for:

The information we provide may appear on your credit reports. This can
include information about:
•
•
•
•

• Renewal of your Account;
• Credit line increases or decreases;
• Administration or review of your Account, collection and any
other servicing;
• All other credit-related purposes connected with this Agreement;
• Offers for other cards, insurance products and other services; and
• Other uses permitted by law.

Late Payments;
Overlimit Amounts;
Returned Payments; and
Other violations of this Agreement.

If you think we’ve given incorrect information to a Consumer Reporting
Agency about you (or about an Authorized User), please write to us at the
Customer Service address on your statement and we’ll research it. We’ll
let you know if we agree or disagree with you. If we agree with you, we’ll
contact each Consumer Reporting Agency we reported to and request a
correction.

We report Account information in your name, as well as information
about you to Consumer Reporting Agencies, on a monthly basis.

9

ACCOUNT INFORMATION, INFORMATION SHARING & COMMUNICATIONS
Changes to Account Information. You provided certain personal
information to us when you opened your Account. You agree to notify
us if this information changes. If you don’t, or if we ask you to verify
your Account information and you cannot, we may suspend or close
your Account.

This includes communications to mobile, cellular/wireless or similar
devices. We may contact you by live operator, auto-dialer, recorded or
artificial voice, text or email.

Information Sharing. You agree to let us share information about you
and your Account as allowed by law. This includes information we get
from you and others. Our privacy notice, which is enclosed with your new
Account materials, describes reasons Citi can share its customers’
personal information.

How We Capture and Use Voiceprints. We may use voice recognition
technology to verify your identity when you call. We may capture and
store your voiceprint for this purpose.

COMMUNICATIONS
Contacting You. You agree that we (and/or our service providers or
anyone we authorize) may contact you at any phone number, email
address or mailing address you provide or we obtain in other ways.

You agree to pay any charges from your plan provider for communications
we send to you, as well as communications you send to us.

Call Monitoring. We may monitor and record any calls between you
and us.
Notices. We send any notices to your billing address or, if you’ve agreed,
by email to the address you gave us. We consider a notice sent as soon
as we mail it. We consider an electronic notice sent as soon as we email
it, unless we receive notification that the email was undeliverable.

10

TRANSACTIONS

Merchant Refunds. A merchant refund to your Account will post to your
Account as a credit. We don’t control when a merchant sends an Account
credit. We’ll choose how to apply the credit to your existing Account
balances, including whether to apply a credit to a Citi Flex Plan or a
different balance. If you believe a merchant credit has not been applied
properly, please contact us. If a credit creates a credit balance on your
Account, we’ll mail you a check for the amount of the credit balance.
Note: Merchant Surcharges. Some merchants, including merchants
outside the U.S., may charge you a fee to use your Card for a Purchase.
The fee will be either a percentage of the amount of your Purchase,
or a flat fee, and will be added to the amount of your Purchase. Usually,
a merchant will tell you about this fee before you use your Card, but not
always. We don’t control these fees, and can’t prevent them.

Recurring Authorized Transactions. If you authorize a merchant or any
other person to charge your Account for recurring Transactions, you must
notify the merchant if:
• You want to discontinue these Transactions;
• Your Account is closed;
• Your Account number changes;
• Your Card expiration date changes.
You’re responsible for reinstating any recurring authorized Transactions.
Refusal of the Card. We don’t guarantee approval of Transactions.
We are not liable for those that aren’t approved, even if you have enough
available credit on your Account. We also may limit the number of Transactions
approved in a single day. If we detect unusual or suspicious activity, we may
suspend credit privileges on the Account or the impacted card.

9

11

ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT CAREFULLY.
This section provides that disputes may be resolved by binding
arbitration. Arbitration replaces the right to go to court, have a jury trial or
initiate or participate in a class action. In arbitration, disputes are resolved
by an arbitrator, not a judge or jury. Arbitration procedures are simpler and
more limited than in court. This arbitration provision is governed by the
Federal Arbitration Act (FAA), and shall be interpreted in the broadest way
the law will allow.
Covered claims
• You or we may arbitrate any claim, dispute or controversy between
you and us arising out of or related to your Account, a previous related
Account or our relationship (called “Claims”).
• If arbitration is chosen by any party, neither you nor we will
have the right to litigate that Claim in court or have a jury trial
on that Claim.
Except as stated below, all Claims are subject to arbitration, no matter
what legal theory they’re based on or what remedy (damages, or
injunctive or declaratory relief) they seek, including Claims based on
contract, tort (including intentional tort), fraud, agency, your or our
negligence, statutory or regulatory provisions, or any other sources of law;
Claims made as counterclaims, cross-claims, third-party claims,
interpleaders or otherwise; Claims made regarding past, present or future
conduct; and Claims made independently or with other claims. This also
includes Claims made by or against anyone connected with us or you or
claiming through us or you, or by someone making a claim through us or
you, such as a co-applicant, Authorized User, employee, agent,
representative or an affiliated/parent/subsidiary company.
Arbitration limits
• Individual Claims filed in a small claims court are not subject to
arbitration, as long as the matter stays in small claims court.
• We won’t initiate arbitration to collect a debt from you unless you
choose to arbitrate or assert a Claim against us. If you assert a Claim
against us, we can choose to arbitrate, including actions to collect a
debt from you. You may arbitrate on an individual basis Claims brought
against you, including Claims to collect a debt.
• Claims brought as part of a class action, private attorney general or
other representative action can be arbitrated only on an individual
basis. The arbitrator has no authority to arbitrate any claim on a class
or representative basis and may award relief only on an individual
basis. If arbitration is chosen by any party, neither you nor we may
pursue a Claim as part of a class action or other representative action.
Claims of 2 or more persons may not be combined in the same
arbitration. However, applicants, co-applicants, Authorized Users on a
single Account and/or related Accounts or corporate affiliates are here
considered as one person.
How arbitration works
• Arbitration shall be conducted by the American Arbitration Association

(“AAA”) according to this arbitration provision and the applicable AAA
arbitration rules in effect when the claim is filed (“AAA Rules”), except
where those rules conflict with this arbitration provision. You can obtain
copies of the AAA Rules at the AAA’s website (www.adr.org) or by
calling 800-778-7879. You or we may choose to have a hearing, appear
at any hearing by phone or other electronic means, and/or be
represented by counsel. Any in-person hearing will be held in the same
city as the U.S. District Court closest to your billing address.
• Arbitration may be requested at any time, even where there is a
pending lawsuit, unless a trial has begun or a final judgment entered.
Neither you nor we waive the right to arbitrate by filing or serving a
complaint, answer, counterclaim, motion or discovery in a court lawsuit.
To choose arbitration, a party may file a motion to compel arbitration in
a pending matter and/or commence arbitration by submitting the
required AAA forms and requisite filing fees to the AAA.
• The arbitration shall be conducted by a single arbitrator in accord with
this arbitration provision and the AAA Rules, which may limit discovery.
The arbitrator shall not apply any federal or state rules of civil
procedure for discovery, but the arbitrator shall honor claims of privilege
recognized at law and shall take reasonable steps to protect Account
information and other confidential information of either party if
requested to do so. The arbitrator shall apply applicable substantive
law consistent with the FAA and applicable statute of limitations, and
may award damages or other relief under applicable law.
• The arbitrator shall make any award in writing and, if requested by you
or us, may provide a brief statement of the reasons for the award.
An arbitration award shall decide the rights and obligations only of
the parties named in the arbitration, and shall not have any bearing on
any other person or dispute.
Paying for arbitration fees
• We’ll pay your share of the arbitration fee for an arbitration of Claims
of $75,000 or less if they are unrelated to debt collection. Otherwise,
arbitration fees will be allocated according to the applicable AAA Rules.
If we prevail, we may not recover our arbitration fees, unless the
arbitrator decides your Claim was frivolous. All parties are responsible
for their own attorney’s fees, expert fees and any other expenses,
unless the arbitrator awards such fees or expenses to you or us based
on applicable law.
The final award
• Any award by an arbitrator is final unless a party appeals it in writing to
the AAA within 30 days of notice of the award. The arbitration appeal
shall be determined by a panel of 3 arbitrators. The panel will consider
all facts and legal issues anew based on the same evidence presented
in the prior arbitration, and will make decisions based on a majority
vote. Arbitration fees for the arbitration appeal shall be allocated
according to the applicable AAA Rules. An award by a panel on appeal
is final. A final award is subject to judicial review as provided by
applicable law.

continued on next page

10

Section 11 — ARBITRATION (continued)

Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement and
termination of the Account or the relationship between you and us,
including the bankruptcy of any party and any sale of your Account, or
amounts owed on your Account, to another person or entity. If any part
of this arbitration provision is deemed invalid or unenforceable, the other
terms shall remain in force, except that there can be no arbitration of a
class or representative Claim. This arbitration provision may not be
amended, severed or waived, except as provided in this Agreement or
in a written agreement between you and us.

Rules for rejecting this arbitration provision
You may reject this arbitration provision by sending a written rejection
notice to us at: PO Box 790085, St. Louis, MO 63179-0085. Your rejection
notice must be mailed within 45 days of Account opening. Your rejection
notice must state that you reject the arbitration provision and include
your name, address, Account number and personal signature. No one
else may sign the rejection notice. Your rejection notice will not apply to
the arbitration provision(s) governing any other account(s) that you have
or had with us. Rejection of this arbitration provision won’t affect your
other rights or responsibilities under this Agreement, including use of
the Account.

12

AGREEMENT & BENEFIT CHANGES
Changes to this Agreement. We may change this Agreement for any
reason and at any time, subject to applicable law. This means that
we can change rates and fees that apply to your Account. It also
means we can add, replace or remove provisions of this Agreement.
If required by applicable law, we’ll give you notice of the changes. If
you have the right to reject a change, we’ll notify you and tell you

how to reject. If we notify you of a change, we may do so on your
statement or send you a separate written notice, either of which
may be sent electronically if permitted by applicable law.
Changing Benefits. Any benefit, reward, service or feature offered may
change or be discontinued at any time for any reason. Separate terms
and conditions will describe any exceptions.

13

MISCELLANEOUS
Assignment. We may assign any or all of our rights and obligations
under this Agreement to a third party. You may not sell, assign or transfer
your Account or any of your obligations under this Agreement.
Governing Law. Federal law and the law of South Dakota govern the
terms and enforcement of this Agreement.
Enforcing this Agreement. We won’t lose our rights under this
Agreement because we delay in enforcing them or fail to enforce them.
If any provision of this Agreement is found to be unenforceable, all other
provisions of the Agreement will remain in effect.
Collection Costs. To the extent allowed by law, you’re liable to us for our
legal costs if we refer collection of your Account to a lawyer who isn’t our
salaried employee. These costs may include reasonable attorneys’ fees,
as well as costs and expenses of any legal action.

Unforeseen Circumstances. From time to time, our services might be
unavailable due to circumstances beyond our control (such as fires,
floods, natural disasters, system failures or other unpredictable events).
When this happens, you might not be able to use your Card or obtain
information about your Account. We’re not responsible or liable if
this happens.
Lost or Stolen Cards, Account Numbers or Account Checks. You
must try to prevent the unauthorized use of your Account and any Card,
including your Account number. You must call us if any Card is lost or
stolen. Also, you must call us if you think someone has used or may use
these items without permission.
Headings. The headings in this Agreement are included as a matter of
convenience and don’t define, limit or enlarge the scope of this
Agreement or any of its provisions.

11

14

YOUR BILLING RIGHTS
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act. Keep this document for future use.
What to Do if You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at the
address for billing inquiries and correspondence shown on the front of
your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill,
describe what you believe is wrong and why you believe it is
a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but
if you do we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do 2 things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already corrected
the error.
2. Within 90 days of receiving your letter, we must either correct the error
or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as
delinquent on that amount.
• The transaction in question may remain on your statement, and we
may continue to charge you interest on that amount.

If you receive our explanation but still believe your bill is wrong, you must
write to us within 10 days telling us that you still refuse to pay. If you do
so, we cannot report you as delinquent without also reporting that you
are questioning your bill. We must tell you the name of anyone to whom
we reported you as delinquent, and we must let those organizations
know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first
$50 of the amount you question even if your bill is correct.
Your Rights if You’re Dissatisfied with Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to pay
the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100
miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these is necessary if your
purchase was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with an Account check
do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address for billing inquiries and
correspondence shown on the front of your statement.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.
For Further Information: Call the Customer Service number shown on
the statement or on the back of your Card if you need more information.

• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question
or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the
amount in question, along with applicable interest and fees. We will
send you a statement of the amount you owe and the date payment is
due. We may then report you as delinquent if you do not pay the
amount we think you owe.

520 v9

12

